                                    SOCIAL SECURITY

MEMORANDUM

Date:   March 23, 2006                                                               Refer To:

To:     The Commissioner

From:   Inspector General

Subject: The Social Security Administration’s Nationwide Asbestos Program (A-13-05-21521)



        The attached final report presents the results of our review. We conducted this review
        in response to anonymous allegations of mismanagement. Our objective was to
        determine the validity of these allegations. Specifically, we reviewed the Social Security
        Administration’s policies, procedures, and practices used for the administration of its
        Nationwide Asbestos Management Program.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                               S
                                                               Patrick P. O’Carroll, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



      THE SOCIAL SECURITY
  ADMINISTRATION’S NATIONWIDE
       ASBESTOS PROGRAM



    March 2006   A-13-05-21521




   EVALUATION
     REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                               Executive Summary
OBJECTIVE
We conducted this review in response to anonymous allegations of mismanagement.
Our objective was to determine the validity of these allegations. Specifically, we
reviewed the Social Security Administration’s (SSA) policies, procedures, and practices
used for its Nationwide Asbestos Management Program (Program).

BACKGROUND
On November 18, 2004, we received an anonymous letter containing allegations that
SSA had not addressed issues in our November 1999 report, Selected Procedures
Used in the Social Security Administration’s Asbestos Management Program for its
Main Complex. We received additional anonymous allegations on January 25, 2005.

RESULTS OF REVIEW

During our review, nothing came to our attention to indicate mismanagement existed in
the Program. However, we determined some of the concerns related to SSA’s policies,
procedures, and practices were valid, and there were opportunities to improve program
management.

CONCLUSION AND RECOMMENDATIONS
While SSA is not statutorily required to have an asbestos management program, it
voluntarily adopted some of the provisions contained in the Asbestos Hazard
Emergency Response Act of 1986 to demonstrate its commitment to safeguarding the
health and well-being of its employees and the public. The Agency’s actions were
noteworthy; however, opportunities exist to improve the Program. We recommend that
SSA:

•   Modify its existing Program protocols to identify when to conduct, and time periods
    for conducting, the required initial inspections and reinspections of buildings.

•   Develop policy to specify when operation and maintenance plans should be
    reviewed and updated; and to specify when monitoring of work sites in the proximity
    of asbestos is required.




The Social Security Administration’s Nationwide Asbestos Program (A-13-05-21521)          i
Revise, if appropriate, the inter-agency agreement with the Public Health Service-
Federal Occupational Health so that the agreement is consistent with Agency policies.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in
Appendix E.




The Social Security Administration’s Nationwide Asbestos Program (A-13-05-21521)        ii
                                                                        Table of Contents
                                                                                                                    Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................4

SSA Can Improve Its Nationwide Asbestos Management Program........................4

    •    Initial Asbestos Inspections Were Not Always Conducted............................4

    •    Asbestos Reinspections Were Not Always Performed Timely......................6

    •    Agency Inspection and Reinspection Protocols Were Inconsistent
         with Inter-Agency Agreement .......................................................................7

    •    Agency Policy Does Not Address Operation and Maintenance
         Plans Review and Update ............................................................................7

    •    Additional Work Orders Should Have Been Selected for Work Site
         Monitoring ....................................................................................................8

CONCLUSION AND RECOMMENDATIONS .......................................................11

OTHER MATTER .................................................................................................12

APPENDICES

APPENDIX A – Acronyms

APPENDIX B – Delegated Authority Buildings

APPENDIX C – Scope and Methodology

APPENDIX D – Sampling Methodology

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments




The Social Security Administration’s Nationwide Asbestos Program (A-13-05-21521)
                                                                  Introduction
OBJECTIVE
We conducted this review in response to anonymous allegations of mismanagement.
Our objective was to determine the validity of these allegations. Specifically, we
reviewed the Social Security Administration’s (SSA) policies, procedures, and practices
used for its Nationwide Asbestos Management Program (Program).

BACKGROUND
On November 18, 2004, we received an anonymous letter containing allegations that
SSA had not addressed issues contained in our November 1999 report, Selected
Procedures Used in the Social Security Administration’s Asbestos Management
Program for its Main Complex. We received additional anonymous allegations on
January 25, 2005.

The Occupational Safety and Health Act of 1970 (OSHA)1 requires that Federal
agencies establish and maintain an effective and comprehensive occupational safety
and health program. The agencies’ programs shall provide safe and healthful places
and conditions of employment. Further, OSHA requires that Federal agencies report
annually on occupational accidents and their occupational safety and health programs
to the Secretary of Labor.2 Specifically, agencies must record and report on work-
related fatalities, injuries and illnesses.3 OSHA does not require that agencies report on
asbestos management activities.

SSA’s asbestos management program assists the Agency in providing healthful places
and conditions of employment. The Office of Environmental Health and Occupational
Safety (OEHOS), within SSA’s Office of Facilities Management, oversees the Agency’s
asbestos management program. While SSA is not statutorily required to have an
asbestos management program, it voluntarily adopted some of the provisions contained
in the Asbestos Hazard Emergency Response Act of 1986 (AHERA)4 to demonstrate its
commitment to safeguarding the health and well-being of employees and the public.

AHERA requires public and private elementary and secondary schools to inspect their
buildings for asbestos-containing materials.5 SSA reported it uses AHERA
requirements as guidance to manage asbestos in its Federal buildings. Based on

1
    Public Law 91-596, 84 Stat. 1590 (1970).
2
    Public Law 91-596, Sec. 19, 84 Stat. 1609 (1970).
3
    29 CFR Part 1904.
4
    Public Law 99-519, 100 Stat. 2970 (1986).
5
    40 CFR 763.80.


The Social Security Administration’s Nationwide Asbestos Program (A-13-05-21521)          1
AHERA, the Agency developed some internal policies, procedures, and practices to
administer its asbestos program; for example, SSA developed its Asbestos Initial and
Reinspection Protocols. These Protocols represent a sample of the Agency’s written
asbestos policies and procedures.

The term “asbestos” describes six naturally occurring fibrous minerals found in certain
types of rock formations. Asbestos in buildings was commonly used for thermal
insulation, fireproofing, and in various building materials. Intact and undisturbed
asbestos materials do not pose a health risk. However, asbestos materials can become
hazardous when, due to damage, disturbance, or deterioration over time, asbestos
fibers are released into the air of a building. If inhaled, the fibers can cause diseases
that disrupt the normal functioning of the lungs.

The General Services Administration (GSA) is responsible for asbestos management in
the buildings it owns or leases and SSA staff occupies. As of January 2005, SSA staff
occupied 1,862 buildings. Of the 1,862 buildings, GSA delegated authority for the
operation and maintenance6 of 18 buildings to SSA (see Appendix B). Documents
provided by OEHOS staff indicated two of these buildings did not have asbestos. Of the
remaining 16, we reviewed documentation related to the Agency’s asbestos
management activities for 11 buildings at SSA Headquarters in Maryland and 5 in
various field locations nationwide.

For the other buildings used by SSA, operation and maintenance activities, including
asbestos management, are GSA’s responsibility. GSA is required to notify SSA when
completing asbestos management activities in buildings operated by GSA and occupied
by SSA employees. However, GSA is not required to inform SSA about asbestos
management activities in buildings GSA leases for SSA employees to occupy.

Our November 1999 report stated that SSA work sites were not monitored to ensure
compliance with standard operating procedures for asbestos containment, and work
order approvals were appropriate but lacked quality assurance review. SSA concurred
with our findings and reported action was underway to implement our
recommendations. We recommended:

•     The Office of Main Complex Management’s Safety and Occupational Health
      Specialists monitor work sites in the proximity of asbestos to ensure strict adherence
      to standard operating procedures.

•     The Office of Environmental Policy and Automation Resources review work
      renovation requests approved in the Office of Main Complex Management to ensure
      decisions concerning such work orders are appropriate.




6
    This includes asbestos management.


The Social Security Administration’s Nationwide Asbestos Program (A-13-05-21521)           2
During our current review, Agency officials explained that, in November 2001, the
Offices of Main Complex Management, Environmental Policy and Automation
Resources and the Outlying Buildings Management were reorganized and combined to
become OEHOS. In February 2005, OEHOS implemented formal procedures for
periodically reviewing work orders. However, we did not independently verify these
procedures.




The Social Security Administration’s Nationwide Asbestos Program (A-13-05-21521)     3
                                                              Results of Review
During our review, nothing came to our attention to indicate mismanagement existed in
the Agency’s Program. However, we determined some of the concerns related to
SSA’s policies, procedures, and practices were valid, and there were opportunities to
improve program management.

SSA CAN IMPROVE ITS NATIONWIDE ASBESTOS MANAGEMENT
PROGRAM
The controls for SSA’s Program needed enhancement. Federal agencies use
management controls to reasonably ensure reliable and timely information is obtained,
maintained, reported and used for decisionmaking. Management controls developed for
agency programs should be logical, applicable, reasonably complete as well as effective
and efficient in accomplishing management objectives.7

Initial Asbestos             Initial asbestos inspections were not always conducted, as
Inspections Were Not         required by SSA’s Asbestos Inspection Protocol. SSA’s
Always Conducted             Protocol8 states, “All SSA offices that will be occupied for
                             six months or more shall be inspected. An inspection will
                             be conducted in those buildings that were constructed in
1990 or later even though the likelihood of the use of asbestos in materials is
exceedingly low.” Further, AHERA states, “Any building leased or acquired on or after
October 12, 1988, that is to be used as a school building shall be inspected.…”9 The
purpose of the inspections is to identify, map the location of, and assess the condition of
friable10 and nonfriable asbestos-containing materials, and to determine potential
exposures and risk.

We randomly selected 50 buildings occupied by SSA employees as of January 200511
(see Appendix C) and requested the initial asbestos inspection reports. We received
35 reports. For the 15 missing reports, SSA provided the following explanations.




7
 Office of Management and Budget Circular A-123, Management Accountability and Control, Revised
June 21, 1995.
8
    SSA Asbestos Inspection Protocol, December 9, 1999.
9
    40 CFR 763.85.
10
     Asbestos that can be reduced to dust by hand pressure.
11
     SSA employees occupied 1,862 buildings as of January 2005.


The Social Security Administration’s Nationwide Asbestos Program (A-13-05-21521)                  4
•    Seven buildings were scheduled to have initial asbestos inspections in 2005.12
•    Three buildings were not required to have initial asbestos inspections completed.13
•    Three buildings were not scheduled to have initial asbestos inspections completed
     because OEHOS was not notified about the relocation of SSA staff to these
     buildings.
•    One building had been newly constructed. Therefore, the building was excluded
     from the initial asbestos inspection requirement.
•    One building’s initial asbestos inspection report was pending.

On July 15, 2005, we discussed the results of our work with OEHOS staff. After this
discussion, we were provided an initial asbestos inspection report for one of the three
buildings indicated above as not scheduled to have an inspection completed. In
addition, we received a revised initial Asbestos Inspection Protocol.14

We believe initial asbestos inspections should have been conducted for two buildings
that were not scheduled to have an inspection. Although the revised Agency Protocol
states, “Asbestos inspections will be conducted at the leisure of SSA,” we believe,
without an initial asbestos inspection to identify, map, and assess asbestos in these
buildings, the health and well-being of SSA personnel and the public may be at-risk.

Further, we are concerned that written program policy as described in the revised
Protocol does not identify a time period within which initial inspections should occur.
For example, three of the seven buildings scheduled to have initial asbestos inspections
in 2005 were occupied before 2004. SSA management stated they attempt to schedule
initial asbestos inspections within the same year or the following year after receiving
notification from the regional office that staff has relocated or will relocate. However, it
may be in the Agency’s best interest to modify its existing Program protocols to identify
when to conduct, and specific time periods for conducting, required initial inspections.
These modifications will ensure asbestos management program expectations are
communicated to SSA personnel and contractors.




12
  As of September 21, 2005, OEHOS staff reported five initial inspections were pending, one initial
inspection report was pending, and one exclusion letter was pending. An exclusion letter indicates an
assessment was made by some authoritative source that, to the best of their knowledge, a building was
constructed without the use of asbestos-containing material.
13
  SSA’s management stated that these three sites are “typically not surveyed because they are small
and are not occupied on a continuous basis.” These sites include a remote hearing site, training center,
and teleconference center.
14
  The revised initial asbestos inspection protocol is included in the document entitled SSA Asbestos
Inspection Protocol, April 2004.


The Social Security Administration’s Nationwide Asbestos Program (A-13-05-21521)                           5
                                   Reinspections for buildings with asbestos-containing
  Asbestos Reinspections           materials were not always performed timely. The
  Were Not Always                  Agency’s Asbestos Reinspection Protocol15 stipulates,
  Performed Timely                 “Reinspections of asbestos-containing materials
                                   within SSA facilities are conducted every 3 years. All
SSA offices that will be occupied for 6 months or more shall be reinspected.” Agency
management stated its goal is to perform reinspections every 3 years. Further, AHERA
states, “At least once every 3 years after a management plan is in effect, each [local
education agency] shall conduct a reinspection of all friable and nonfriable known or
assumed ACBM in each [school] building that they lease, own, or otherwise use as a
[school building].”16, 17

We randomly selected 50 field offices that SSA had identified as having asbestos-
containing materials and requested reinspection reports (see Appendix C). Based on
the information provided by SSA, 23 (46 percent) of the buildings did not require
reinspection.18 Therefore, we did not receive reinspection reports for these buildings.
Of the remaining 27 field offices, 18 (36 percent) buildings had timely reinspections, and
9 (18 percent) buildings did not.19
                                    Chart 1: Asbestos Reinspection
                                            Review Results
                                                                         Timely
                                                                         Reinspection


                                                 36%
                             46%                                         Reinspections not
                                                                         performed timely


                                           18%
                                                                         Reinspection Not
                                                                         Required

15
     SSA Asbestos Reinspection Protocol, December 9, 1999.
16
     40 CFR 763.85.
17
     The acronym ACBM denotes asbestos-containing building material.
18
  SSA reported 10 buildings did not have asbestos-containing materials; 4 buildings had “assumed”
asbestos-containing material on the exterior of the building; staffs from 3 buildings were either relocated
or scheduled to relocate; and 1 building was a remote hearing site. In addition, five buildings had
exclusion letters.
19
     We define a reinspection performed within 3 years and 6 months as timely.


The Social Security Administration’s Nationwide Asbestos Program (A-13-05-21521)                              6
We also requested reinspection reports for the 11 buildings at SSA Headquarters for
which GSA delegated operation and maintenance authority to SSA. We determined
SSA conducted timely reinspections for 10 buildings in 2003. A reinspection was not
required for one building because the asbestos materials that remained in the building
were inaccessible.

After our July 2005 discussion with OEHOS staff, we received a revised asbestos
inspection protocol. The revised protocol no longer specified a time frame for
conducting reinspections. We believe the lack of timely reinspections may pose an
increased health risk to SSA’s personnel and the public. In addition, the lack of policy
specifying time frames to conduct reinspections may cause these reviews to be
overlooked. This may increase the risk that conditions involving asbestos go
undetected. The Agency should modify its existing Program protocols to identify when
to conduct, and specific time periods for conducting, building reinspections. This action
would contribute toward ensuring its employees are provided safe and healthful places
and conditions of employment, as required by OSHA.

Agency Inspection and           The Public Health Service-Federal Occupational Health
Reinspection Protocols          (PHS-FOH), within the Department of Health and
Were Inconsistent with          Human Services, conducts initial asbestos inspections
Inter-Agency Agreement          and reinspections. PHS-FOH provides this service
                                through an inter-agency agreement. The inspection
                                and reinspection protocols do not address a timeframe
for PHS-FOH to submit inspection and reinspection reports to SSA. The revised
asbestos inspection protocol provided by OEHOS staff after our July 2005 discussion
states, “FOH shall submit a report detailing the inspection and the findings to OEHOS
within four weeks of the completion of the inspection.”

Agency Policy Does Not   During our review, we found SSA’s inter-agency agreement
Address Operation and    with PHS-FOH did not specify a time requirement for PHS-
Maintenance Plans        FOH to submit inspection and reinspection reports to the
Review and Update        Agency. Without a time requirement for PHS-FOH to
                         submit a report, SSA’s actions to address asbestos
management issues could be delayed.

Based on documentation provided, we could not determine whether the operation and
maintenance plans were timely reviewed and updated for five field locations nationwide.
GSA delegated authority for the operation and maintenance of these buildings20 to SSA.
An operation and maintenance plan contains work practices to (1) maintain asbestos-
containing materials in good condition, (2) ensure proper clean-up of asbestos fibers
previously released, (3) prevent further release of asbestos fibers, and (4) monitor the
condition of asbestos-containing materials.


20
  The Harold Washington Social Security Center, Mid-Atlantic Program Service Center, Southeastern
Program Service Center, Northeastern Program Service Center, and the Western Program Service
Center.


The Social Security Administration’s Nationwide Asbestos Program (A-13-05-21521)                    7
We requested operation and maintenance plans for the 16 buildings for which GSA
delegated operation and maintenance authority to SSA. We determined the operation
and maintenance plans for the 11 buildings at SSA Headquarters were updated in
March 2005. For the five field locations, we could not determine whether the operation
and maintenance plans had been reviewed and/or updated.

An OEHOS official explained the Agency follows the guidance contained in the
Environmental Protection Agency’s Managing Asbestos in Place: A Building Owner’s
Guide to Operations and Maintenance Programs for Asbestos-Containing Materials.
The guidance recommends Agency asbestos program managers periodically review
written operation and maintenance plans to determine whether the plans should be
updated. However, SSA did not have written policy specifying when its operation and
maintenance plans should be reviewed and updated.

We believe SSA employees and the general public expect periodic reviews and updates
of operation and maintenance plans for buildings containing asbestos. Such
expectations are reasonable. By developing policy to specify when operations and
maintenance plans should be reviewed and updated, the Agency will ensure asbestos
management program responsibilities are communicated to SSA personnel and
contractors.

                               During our review, we determined additional work orders
Additional Work Orders
                               should have been selected for OEHOS’ work site
Should Have Been
                               monitoring. Our November 1999 report recommended
Selected for Work Site
                               that Safety and Occupational Health Specialists21
Monitoring
                               “…monitor work sites in the proximity of asbestos to
                               ensure strict adherence to standard operating
procedures.” SSA agreed with our recommendation. However, during our review, SSA
did not have written policy for monitoring work sites in the proximity of asbestos.

OEHOS management stated the Agency usually monitors work sites if the following
conditions exist:
•    a building repair work order has a record number divisible by 10;22
•    a work order is issued for maintenance above the suspended ceiling within 10 feet of
     the outside perimeter wall of the Altmeyer or Operations Building; or




21
  As of September 2001, the position description of a Safety and Occupational Health Specialist
indicated the employee was responsible for developing and implementing the control/abatement of
environmental hazards and resolving health and safety issues for SSA offices nationwide.
22
  A record number is an identifier for work orders at Headquarters. The record number is building-
specific and resets each calendar year. For example, if Building A had 17 work orders for Calendar Year
2004, the record numbers would be 1 through 17. There is no record of the criteria SSA used to
determine why it should flag every work order with a record number divisible by 10.


The Social Security Administration’s Nationwide Asbestos Program (A-13-05-21521)                      8
•     the Safety and Occupational Health Specialist chooses a work order for work site
      monitoring for education/training, general information, or as a precautionary
      measure.

To test the Agency’s work site monitoring practices, we requested a demonstration of
the work order preparation and approval process. We also toured OEHOS storage
facility.23 We obtained an automated work order log for Calendar Year 2004 that
contained 764 work orders for 11 buildings at SSA Headquarters for which GSA
delegated authority for the operation and maintenance to the Agency. We requested all
work orders OEHOS selected for work site monitoring during Calendar Year 2004.

Based on the Agency’s stated practice of selecting building repair work orders that have
a record number divisible by 10, we should have received at least 73 work orders
(see Chart 2). However, OEHOS provided us 69 work orders.

     Chart 2: Summary of Work Orders from Headquarters Delegated Buildings
                             (Calendar Year 2004)
Building Name    Calendar Year     Work Orders Having         Work Orders
                     2004             Record Number            Selected for
                 Work Orders           Divisible by 10         Monitoring
Altmeyer              130                    13                    10
Annex                 116                    11                      7
East Buildings         49                      4                     3
Metro West            104                    10                    10
National
Computer
Center                 91                      9                     8
Operations            140                    14                    19
Supply                 27                      2                     4
West Buildings        106                    10                      8
Miscellaneous           1                      0                     0
Main Complex
   TOTALS            764                     73                    69

The 69 work orders the Agency provided do not meet the first practice we identified.
Therefore, if any work orders were selected for the second or third practices we
identified, the variance would have been greater. OEHOS management stated they
plan to implement a new work order processing system in January 2006.24 An official
indicated the new process is intended to improve the management and documentation
of the work order process.



23
     We noted the facility appeared to be organized and documents appropriately filed.
24
     The new system is called the Drawing Information Management System.


The Social Security Administration’s Nationwide Asbestos Program (A-13-05-21521)         9
Written policies should decrease the risk of excluding work orders that should be
included in OEHOS’ work site monitoring efforts. In addition, these policies would
provide future managers a tool to ensure monitoring of work sites in the proximity of
asbestos is completed to safeguard Agency employees and the public.




The Social Security Administration’s Nationwide Asbestos Program (A-13-05-21521)        10
                                                    Conclusion and
                                                  Recommendations
While SSA is not statutorily required to have an asbestos management program, it
voluntarily adopted some of the provisions contained in AHERA to demonstrate its
commitment to safeguarding the health and well-being of employees and the public.
We believe SSA’s employees and the general public have a reasonable expectation the
buildings occupied and visited are safe and healthy. The Agency actions taken were
noteworthy; however, opportunities to improve management of its asbestos program
exist.

Therefore, we recommend that SSA:

1. Modify its existing Program protocols to identify when to conduct, and time periods
   for conducting, the required initial inspections and reinspections of buildings.

2. Develop policy to specify when operation and maintenance plans should be
   reviewed and updated; and to specify when monitoring of work sites in the proximity
   of asbestos is required.

3. Revise, if appropriate, the inter-agency agreement with the Public Health Service-
   Federal Occupational Health so that the agreement is consistent with Agency
   policies.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in
Appendix E.




The Social Security Administration’s Nationwide Asbestos Program (A-13-05-21521)         11
                                                                Other Matter
INCONSISTENT APPLICATION OF ASBESTOS MANAGEMENT
STANDARD OPERATING PROCEDURES

GSA delegated authority for the operation and maintenance of 18 buildings to SSA. Of
the 18 buildings, 6 were in various locations nationwide (see Appendix B). Of the six
buildings, five had asbestos-containing material. These buildings were the Harold
Washington Social Security, Southeastern Program Service, Mid-Atlantic Program
Service, Northeastern Program Service, and Western Program Service Centers.

According to the facilities’ management, the Harold Washington Social Security Center,
Southeastern Program Service Center, and Northeastern Program Service Center used
the same standard operating procedures that were used to manage asbestos at the
delegated authority buildings located at SSA’s Headquarters in Maryland. However,
these procedures are not used to manage asbestos at the Mid-Atlantic Program Service
Center or the Western Program Service Center.




The Social Security Administration’s Nationwide Asbestos Program (A-13-05-21521)    12
                                           Appendices




The Social Security Administration’s Nationwide Asbestos Program (A-13-05-21521)
                                                                         Appendix A

Acronyms
 AHERA             Asbestos Hazard Emergency Response Act of 1986
 CFR               Code of Federal Regulations
 GSA               General Services Administration
 OEHOS             Office of Environmental Health and Occupational Safety
 OSHA              Occupational Safety and Health Act of 1970
 PHS-FOH           Public Health Service-Federal Occupational Health
 SSA               Social Security Administration




The Social Security Administration’s Nationwide Asbestos Program (A-13-05-21521)
                                                                                  Appendix B

Delegated Authority Buildings
Social Security Administration Headquarters’ Buildings in Maryland

▪     Altmeyer
▪     Operations
▪     Annex
▪     East Low Rise
▪     East High Rise
▪     West Low Rise
▪     West High Rise
▪     Supply
▪     National Computer Center
▪     National Computer Center Utility
▪     Metro West
▪     Child Care Center1

Field Locations

▪     Harold Washington Social Security Center in Chicago, Illinois
▪     Southeastern Program Service Center in Birmingham, Alabama
▪     Mid-Atlantic Program Service Center in Philadelphia, Pennsylvania
▪     Northeastern Program Service Center in Jamaica, New York
▪     Western Program Service Center in Richmond, California
▪     Wilkes-Barre Data Operations Center in Wilkes-Barre, Pennsylvania1




1
    The Child Care Center and the Wilkes-Barre Data Operations Center do not contain asbestos.


The Social Security Administration’s Nationwide Asbestos Program (A-13-05-21521)
                                                                         Appendix C

Scope and Methodology
Our objective was to determine the validity of anonymous allegations of
mismanagement we received. Specifically, we reviewed the Agency’s policies,
procedures, and practices used for the administration of its Nationwide Asbestos
Management Program.

To accomplish our objective, we:

•   Reviewed the Social Security Administration’s (SSA) Nationwide Asbestos
    Management Program policies, procedures and practices and applicable asbestos
    regulations.

•   Reviewed a prior Office of the Inspector General audit report.

•   Evaluated and documented the internal controls used by the Office of Facilities
    Management for managing the Agency’s Nationwide Asbestos Management
    Program.

•   Interviewed Office of Facilities Management, Office of Environmental Health and
    Occupational Safety staff.

•   Developed sampling methodology for reviewing initial asbestos inspections,
    asbestos reinspections, building operations and maintenance plans, and work orders
    (see Appendix D).

•   Observed the Office of Environmental Health and Occupational Safety work area
    and file storage facility.

We do not possess technical expertise concerning asbestos inspection or removal. As
a result, we did not (1) evaluate work performed near work areas that had asbestos-
containing materials, (2) inspect sites where asbestos-containing materials had been
abated, (3) inspect the location and condition of asbestos-containing materials in any
building occupied by SSA or (4) determine the best practices for safeguarding the
Agency employees or the public while removing asbestos. In addition, we did not verify
whether SSA field personnel were on-site during asbestos abatement. Further, we did
not determine if the General Services Administration had asbestos management
standards that could be used by SSA.

The entity reviewed was the Office of Facilities Management under the Deputy
Commissioner for Finance, Assessment and Management. We performed our
evaluation from December 2004 through June 2005 at SSA’s Headquarters in
Baltimore, Maryland. We performed our evaluation in accordance with the Quality
Standards for Inspections issued by the President’s Council on Integrity and Efficiency.


The Social Security Administration’s Nationwide Asbestos Program (A-13-05-21521)
                                                                         Appendix D

Sampling Methodology
We developed an estimation plan for our review of the Social Security Administration’s
(SSA) Nationwide Asbestos Management Program. We requested documentation for
initial asbestos inspections, asbestos reinspections, operations and maintenance plans
for buildings for which the General Services Administration (GSA) delegated operation
and maintenance authority to SSA, and Calendar Year 2004 work orders for buildings
located at SSA Headquarters for which GSA delegated that authority to the Agency.

Initial Asbestos Inspections

We requested initial asbestos inspection reports for 50 buildings. We randomly
selected these buildings from a population of 1,862 buildings occupied by SSA
employees as of January 2005. Of the 50 buildings selected, we found 2 were not
scheduled to have initial asbestos inspections completed. These buildings were not
scheduled for an initial asbestos inspection because the Office of Environmental Health
and Occupational Safety (OEHOS) was not notified about the relocation of SSA staff to
these buildings.

Of the 50, we found 48 (96 percent) buildings had an initial inspection for asbestos or
the Agency provided an explanation why an inspection did not occur.

                               Initial Asbestos Inspections
   Population size                                                                 1,862
   Sample size                                                                        50

   Initial asbestos inspection reports provided                                      36
   Initial asbestos inspections scheduled for 2005                                    7
   Remote hearing sites, training centers, and teleconference centers                 3
   (not surveyed)
   OEHOS not properly notified of a relocation                                        2
   Exclusion Letter provided as justification for not conducting an initial           1
   asbestos inspection
   Report pending from the Federal Occupational Health                                1

Asbestos Reinspections

We requested reinspection reports for 50 buildings. We randomly selected these
buildings from a population of 338 buildings. The 338 buildings were determined by
excluding 243 buildings from a list of 581 buildings that at some point contained
asbestos. The 243 buildings were excluded because the building “Inspection Date” was




The Social Security Administration’s Nationwide Asbestos Program (A-13-05-21521)           D-1
on or after January 1, 2002. OEHOS management informed us the Inspection Date
represented the date of the last inspection.

We determined whether SSA conducted timely reinspections for asbestos in
accordance with its Asbestos Reinspection Protocol.1 We allowed an additional
6 months in deciding whether to consider an error for the timeliness of a building’s
reinspection.

Based on the information provided by SSA, 23 (46 percent) of the buildings did not
require reinspection. Therefore, we did not receive reinspection reports for these
buildings. Of the remaining 27 field offices, 18 (36 percent) buildings had timely
reinspections, and 9 (18 percent) buildings did not.

                               Asbestos Reinspection Summary
     Population Size                                                                          338
     Sample Size                                                                               50

     Reinspection reports provided – Reinspection was performed timely                          18
     Reinspection is “to be scheduled” – Reinspection will not be performed                      9
     timely
     Buildings with no Asbestos Containing Materials                                            10
     Exclusion Letter provided                                                                   5
     Buildings only having Assumed Material Non-Regulated2                                       4
     No reinspection due to an office relocation or a scheduled office                           3
     relocation
     Remote hearing site – Not surveyed according to Agency practice                             1

We also requested reinspection reports for the 11 buildings located at SSA
Headquarters for which GSA delegated operation and maintenance authority to SSA.
We determined SSA conducted timely reinspections for 10 buildings in 2003. A
reinspection was not required for one building because the asbestos materials that
remained in the building were inaccessible.

Operations and Maintenance Plans

We requested operation and maintenance plans for the 16 buildings for which GSA
delegated operation and maintenance authority to SSA. We determined the operation
and maintenance plans for the 11 buildings located at SSA Headquarters were updated


1
    SSA Asbestos Reinspection Protocol, December 9, 1999.
2
  Assumed Material Non-Regulated is a term used to describe material that the Public Health Service
assumed to contain asbestos. AHERA, 40 Code of Federal Regulations 763, Subpart E does not require
sampling/assuming and assessment of materials external to buildings as being a regulated asbestos-
containing material. These materials, while identified in Public Health Service inspection reports are not
regulated under the SSA program. Therefore, reinspections of these materials are not required.


The Social Security Administration’s Nationwide Asbestos Program (A-13-05-21521)                       D-2
in March 2005. For the five field locations, we could not determine whether the
operation and maintenance plans had been reviewed and/or updated.

       Operations and Maintenance (O&M) Plan Review Results
               Building Name                     Did it have an       When was it last
                                                  O&M Plan?             updated?

Headquarters
Altmeyer                                              Yes                March 2005
Operations                                            Yes                March 2005
Annex                                                 Yes                March 2005
East Low Rise                                         Yes                March 2005
East High Rise                                        Yes                March 2005
West Low Rise                                         Yes                March 2005
West High Rise                                        Yes                March 2005
Supply                                                Yes                March 2005
National Computer Center (NCC)                        Yes                March 2005
NCC Utility                                           Yes                March 2005
Metro West                                            Yes                March 2005

Field
Harold Washington Social Security Center              Yes           Could not determine
Western Program Service Center                        Yes           Could not determine
Mid-Atlantic Program Service Center                   Yes           Could not determine
Northeastern Program Service Center                   Yes           Could not determine
Southeastern Program Service Center                   Yes           Could not determine

Work Orders

We obtained an automated work order log for Calendar Year 2004 that contained
764 work orders for 11 buildings located at SSA Headquarters for which GSA delegated
operation and maintenance authority to the Agency. We requested all work orders the
OEHOS selected for work site monitoring during Calendar Year 2004.

Based on the Agency’s practice of selecting building repair work orders having a record
number divisible by 10, we should have received, at a minimum, 73 work orders.
However, the OEHOS provided us 69 work orders.




The Social Security Administration’s Nationwide Asbestos Program (A-13-05-21521)          D-3
                Work Orders from Headquarters Delegated Buildings
                               (Calendar Year 2004)
                     Calendar Year     Work Orders Having       Work Orders
      Building            2004           Record Number           Selected for
       Name           Work Orders         Divisible by 10         Monitoring
Altmeyer                  130                   13                   10
Annex                     116                   11                     7
East Buildings              49                    4                    3
Metro West                104                   10                   10
National Computer
Center                      91                    9                    8
Operations                140                   14                   19
Supply                      27                    2                    4
West Buildings            106                   10                     8
Miscellaneous Main
Complex                      1                    0                    0
      TOTALS              764                   73                   69

In addition to its practice of monitoring every work order with a record number divisible
by 10, SSA also indicated it monitors work orders in two other situations.

•   If a work order is for maintenance above the suspended ceiling within 10 feet of the
    outside perimeter wall of the Altmeyer or Operations Building, or

•   If the Safety and Occupational Health Specialist chooses to provide work site
    monitoring for education/training, general information or as a precautionary
    measure.

We did not determine whether any of the 69 work orders were monitored because of
these 2 Agency practices.




The Social Security Administration’s Nationwide Asbestos Program (A-13-05-21521)        D-4
                                                                          Appendix E

Agency Comments




The Social Security Administration’s Nationwide Asbestos Program (A-13-05-21521)
                                       SOCIAL SECURITY

MEMORANDUM


Date:     March 7, 2006                                                        Refer To: S1J-3

To:       Patrick P. O'Carroll, Jr.
          Inspector General

From:     Larry W. Dye /s/
          Chief of Staff

Subject   Office of the Inspector General (OIG) Draft Report, "The Social Security Administration’s
          Nationwide Asbestos Program" (A-13-05-21521) -- INFORMATION




          We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
          and recommendations are attached.

          Let me know if we can be of further assistance. Staff inquiries may be directed to
          Candace Skurnik, Director, Audit Management and Liaison Staff on extension 54636.

          Attachment:
          SSA Response




          The Social Security Administration’s Nationwide Asbestos Program (A-13-05-21521)            E-1
COMMENTS ON THE OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT,
“THE SOCIAL SECURITY ADMINSTRATION’S NATIONWIDE ASBESTOS
PROGRAM” (A-13-05-21521)

Thank you for the opportunity to review and comment on the draft report. We appreciate your
conducting this audit of SSA’s Nationwide Asbestos Management Program (Program), and we
are pleased that OIG found no mismanagement. The audit did note some areas for improvement
in the program. We agree with OIG’s recommendations for improvement and believe
implementing these recommendations will have be cost neutral.

Recommendation 1

SSA should modify its existing Program protocols to identify conditions when to conduct, and
time periods for conducting, required initial inspections and reinspections of buildings.

Comment

We agree. We will modify the Agency’s existing Program protocols to identify conditions when
to conduct, and time periods for conducting, required initial inspections and reinspections of
buildings by May 31, 2006.

Recommendation 2

Develop policy to specify when operation and maintenance plans should be reviewed and
updated; and specify when monitoring of work sites in the proximity of asbestos is required.

Comment

We agree. We will develop policy to specify when operation and maintenance plans should be
reviewed and updated; and specify when monitoring of work sites in the proximity of asbestos is
required by May 31, 2006.

Recommendation 3

Revise, if appropriate, the inter-agency agreement (IAA) with the Public Health Service-Federal
Occupational Health to be consistent with Agency policies.

Comment

We agree. This recommendation will be addressed and the IAA revised when we review the
IAA with Public Health Services-Federal Occupational Health in August 2006. This will ensure
program activities comply with the SSA Nationwide Asbestos Management Program.




The Social Security Administration’s Nationwide Asbestos Program (A-13-05-21521)               E-2
                                                                          Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Shirley E. Todd, Director, General Management Audit Division, (410) 966-9365

   Brian Karpe, Audit Manager, (410) 966-1029


Acknowledgments
In addition to those named above:

   Chad Kardian, Auditor-in-Charge

   Kimberly Beauchamp, Writer/Editor

   Brennan Kraje, Statistician

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-13-05-21521.




The Social Security Administration’s Nationwide Asbestos Program (A-13-05-21521)
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
